                                                      81904               Federal Register / Vol. 76, No. 250 / Thursday, December 29, 2011 / Proposed Rules

                                                      ENVIRONMENTAL PROTECTION                                www.regulations.gov, including any                    Intent to Delete because we view this as
                                                      AGENCY                                                  personal information provided, unless                 a noncontroversial revision and
                                                                                                              the comment includes information                      anticipate no adverse comment. We
                                                      40 CFR Part 300                                         claimed to be Confidential Business                   have explained our reasons for this
                                                      [EPA–R04–SFUND–2011–0574; FRL–9612–                     Information (CBI) or other information                deletion in the preamble to the direct
                                                      6]                                                      whose disclosure is restricted by statute.            final Notice of Deletion, and those
                                                                                                              Do not submit information that you                    reasons are incorporated herein. If we
                                                      National Oil and Hazardous                              consider to be CBI or otherwise                       receive no adverse comment(s) on this
                                                      Substances Pollution Contingency                        protected through http://                             deletion action, we will not take further
                                                      Plan; National Priorities List: Deletion                www.regulations.gov or email. The                     action on this Notice of Intent to Delete.
                                                      of the Hipps Road Landfill Superfund                    http://www.regulations.gov Web site is                If we receive adverse comment(s), we
                                                      Site                                                    an ‘‘anonymous access’’ system, which                 will withdraw the direct final Notice of
                                                                                                              means EPA will not know your identity                 Deletion, and it will not take effect. We
                                                      AGENCY:  Environmental Protection                       or contact information unless you                     will, as appropriate, address all public
                                                      Agency.                                                 provide it in the body of your comment.               comments in a subsequent final Notice
                                                      ACTION: Proposed rule; notice of intent.                If you send an email comment directly                 of Deletion based on this Notice of
                                                      SUMMARY:   The Environmental Protection                 to EPA without going through http://                  Intent to Delete. We will not institute a
                                                      Agency (EPA) Region 4 is issuing a                      www.regulations.gov, your email                       second comment period on this Notice
                                                      Notice of Intent to Delete the Hipps                    address will be automatically captured                of Intent to Delete. Any parties
                                                      Road Landfill Superfund Site (Site)                     and included as part of the comment                   interested in commenting must do so at
                                                      located in Jacksonville, Florida, from                  that is placed in the public docket and               this time.
                                                      the National Priorities List (NPL) and                  made available on the Internet. If you                   For additional information, see the
                                                      requests public comments on this                        submit an electronic comment, EPA                     direct final Notice of Deletion which is
                                                      proposed action. The NPL, promulgated                   recommends that you include your                      located in the Rules section of this
                                                      pursuant to section 105 of the                          name and other contact information in                 Federal Register.
                                                      Comprehensive Environmental                             the body of your comment and with any                 List of Subjects in 40 CFR Part 300
                                                      Response, Compensation, and Liability                   disk or CD–ROM you submit. If EPA
                                                                                                              cannot read your comment due to                         Environmental protection, Air
                                                      Act (CERCLA) of 1980, as amended, is                                                                          pollution control, Chemicals, Hazardous
                                                      an appendix of the National Oil and                     technical difficulties and cannot contact
                                                                                                              you for clarification, EPA may not be                 waste, Hazardous substances,
                                                      Hazardous Substances Pollution                                                                                Intergovernmental relations, Penalties,
                                                      Contingency Plan (NCP). The EPA and                     able to consider your comment.
                                                                                                              Electronic files should avoid the use of              Reporting and recordkeeping
                                                      the State of Florida, through the Florida                                                                     requirements, Superfund, Water
                                                      Department of Environmental                             special characters, any form of
                                                                                                              encryption, and be free of any defects or             pollution control, Water supply.
                                                      Protection, have determined that all
                                                      appropriate response actions under                      viruses.                                                Authority: 33 U.S.C. 1321(c)(2); 42 U.S.C.
                                                      CERCLA, other than operation,                              Docket: All documents in the docket                9601–9657; E.O. 12777, 56 FR 54757, 3 CFR,
                                                                                                              are listed in the http://                             1991 Comp., p. 351; E.O. 12580, 52 FR 2923;
                                                      maintenance, and five-year reviews                                                                            3 CFR, 1987 Comp., p. 193.
                                                      have been completed. However, this                      www.regulations.gov index. Although
                                                      deletion does not preclude future                       listed in the index, some information is                Dated:November 21, 2011.
                                                      actions under Superfund.                                not publicly available, e.g., CBI or other            A. Stanley Meiburg,
                                                                                                              information whose disclosure is                       Acting Regional Administrator, EPA
                                                      DATES: Comments must be received by
                                                                                                              restricted by statue. Certain other                   Region 4.
                                                      January 30, 2012.                                       material, such as copyrighted material,               [FR Doc. 2011–33470 Filed 12–28–11; 8:45 am]
                                                      ADDRESSES: Submit your comments,                        will be publicly available only in the                BILLING CODE 6560–50–P
                                                      identified by Docket ID no. EPA–HQ–                     hard copy. Publicly available docket
                                                      SFUND–2011–0574, by one of the                          materials are available either
                                                      following methods:                                      electronically in http://
                                                        • http://www.regulations.gov. Follow                                                                        DEPARTMENT OF HEALTH AND
                                                                                                              www.regulations.gov or in hard copy at:               HUMAN SERVICES
                                                      on-line instructions for submitting                     U.S. EPA Record Center, 61 Forsyth
                                                      comments.                                               Street SW., Atlanta, GA 30303, Hours:
                                                        • Email: miller.scott@epa.gov.                                                                              Office of Inspector General
                                                                                                              8 a.m. to 4 p.m., Monday through
                                                        • Fax: (404) 562–8896.
                                                        • Mail: Scott Miller, Remedial Project                Friday. Jacksonville Public Library,                  42 CFR Part 1001
                                                      Manager, Superfund Remedial Branch,                     6886 103rd Street Jacksonville, FL
                                                      Section C, Superfund Division, U.S.                     32210, Monday–Thursday: 10 a.m.–9                     Solicitation of New Safe Harbors and
                                                      EPA Region 4, 61 Forsyth Street SW.,                    p.m., Friday & Saturday: 10 a.m.–6 p.m.               Special Fraud Alerts
                                                      Atlanta, GA 30303.                                      Sunday: 1 p.m.–6 p.m.
                                                                                                                                                                    AGENCY:  Office of Inspector General
                                                        • Hand delivery: Same address as                      FOR FURTHER INFORMATION CONTACT:                      (OIG), HHS.
                                                      above. Such deliveries are only accepted                Scott Miller, Remedial Project Manager,
                                                                                                                                                                    ACTION: Notice of intent to develop
                                                      during the Docket’s normal hours of                     U.S. Environmental Protection Agency,
                                                                                                                                                                    regulations.
wreier-aviles on DSK3TPTVN1PROD with PROPOSALS




                                                      operation, and special arrangements                     Region 4, 61 Forsyth Street SW.,
                                                      should be made for deliveries of boxed                  Atlanta, GA 30303, (404) 562–9120,                    SUMMARY:   In accordance with section
                                                      information.                                            email: miller.scott@epa.gov.                          205 of the Health Insurance Portability
                                                        Instructions: Direct your comments to                 SUPPLEMENTARY INFORMATION: In the                     and Accountability Act of 1996
                                                      Docket ID no. EPA–R04–SFUND–2011–                       ‘‘Rules and Regulations’’ Section of                  (HIPAA), this annual notice solicits
                                                      0574. EPA’s policy is that all comments                 today’s Federal Register, we are                      proposals and recommendations for
                                                      received will be included in the public                 publishing a direct final Notice of                   developing new and modifying existing
                                                      docket without change and may be                        Deletion of the Hipps Road Landfill                   safe harbor provisions under the Federal
                                                      made available online at http://                        Superfund Site without prior Notice of                anti-kickback statute (section 1128B(b)


                                                 VerDate Mar<15>2010   15:07 Dec 28, 2011   Jkt 226001   PO 00000   Frm 00026   Fmt 4702   Sfmt 4702   E:\FR\FM\29DEP1.SGM   29DEP1
                                                                          Federal Register / Vol. 76, No. 250 / Thursday, December 29, 2011 / Proposed Rules                                          81905

                                                      of the Social Security Act), as well as                 available for public inspection as they               B. OIG Special Fraud Alerts
                                                      developing new OIG Special Fraud                        are received at Office of Inspector
                                                      Alerts.                                                 General, Department of Health and                       OIG has also periodically issued
                                                                                                              Human Services, Cohen Building, 330                   Special Fraud Alerts to give continuing
                                                      DATES: To assure consideration, public
                                                                                                              Independence Avenue SW.,                              guidance to health care providers with
                                                      comments must be delivered to the                                                                             respect to practices OIG finds
                                                      address provided below by no later than                 Washington, DC 20201, Monday
                                                                                                              through Friday from 9:30 a.m. to 5 p.m.               potentially fraudulent or abusive. The
                                                      5 p.m. on February 27, 2012.                                                                                  Special Fraud Alerts encourage industry
                                                      ADDRESSES: In commenting, please refer
                                                                                                              To schedule an appointment to view
                                                                                                              public comments, phone (202) 619–                     compliance by giving providers
                                                      to file code OIG–120–N. Because of staff                                                                      guidance that can be applied to their
                                                      and resource limitations, we cannot                     1368.
                                                                                                                                                                    own practices. OIG Special Fraud Alerts
                                                      accept comments by facsimile (fax)                      I. Background                                         are intended for extensive distribution
                                                      transmission.                                                                                                 directly to the health care provider
                                                         You may submit comments in one of                    A. OIG Safe Harbor Provisions
                                                                                                                                                                    community, as well as to those charged
                                                      three ways (no duplicates, please):                       Section 1128B(b) of the Social
                                                                                                              Security Act (the Act) (42 U.S.C. 1320a–              with administering the Federal health
                                                         1. Electronically. You may submit
                                                                                                              7b(b)) provides criminal penalties for                care programs.
                                                      electronic comments on specific
                                                      recommendations and proposals                           individuals or entities that knowingly                  In developing Special Fraud Alerts,
                                                      through the Federal eRulemaking Portal                  and willfully offer, pay, solicit, or                 OIG has relied on a number of sources
                                                      at http://www.regulations.gov.                          receive remuneration to induce or                     and has consulted directly with experts
                                                         2. By regular, express, or overnight                 reward business reimbursable under the                in the subject field, including those
                                                      mail. You may send written comments                     Federal health care programs. The                     within OIG, other agencies of the
                                                      to the following address: Office of                     offense is classified as a felony and is              Department, other Federal and State
                                                      Inspector General, Congressional and                    punishable by fines of up to $25,000                  agencies, and those in the health care
                                                      Regulatory Affairs, Department of                       and imprisonment for up to 5 years. OIG               industry.
                                                      Health and Human Services, Attention:                   may also impose civil money penalties,
                                                      OIG–120–N, Room 5541, Cohen                                                                                   C. Section 205 of the Health Insurance
                                                                                                              in accordance with section 1128A(a)(7)
                                                      Building, 330 Independence Avenue                                                                             Portability and Accountability Act of
                                                                                                              of the Act (42 U.S.C. 1320a–7a(a)(7)), or
                                                      SW., Washington, DC 20201. Please                       exclusion from the Federal health care                1996
                                                      allow sufficient time for mailed                        programs, in accordance with section                     Section 205 of the Health Insurance
                                                      comments to be received before the                      1128(b)(7) of the Act (42 U.S.C. 1320a–               Portability and Accountability Act of
                                                      close of the comment period.                            7(b)(7)).                                             1996 (HIPAA), Public Law 104–191
                                                         3. By hand or courier. If you prefer,                  Since the statute on its face is so                 § 205, the Act, § 1128D, 42 U.S.C.
                                                      you may deliver, by hand or courier,                    broad, concern has been expressed for                 1320a–7d, requires the Department to
                                                      your written comments before the close                  many years that some relatively                       develop and publish an annual notice in
                                                      of the comment period to Office of                      innocuous commercial arrangements                     the Federal Register formally soliciting
                                                      Inspector General, Department of Health                 may be subject to criminal prosecution                proposals for modifying existing safe
                                                      and Human Services, Cohen Building,                     or administrative sanction. In response               harbors to the anti-kickback statute and
                                                      Room 5541, 330 Independence Avenue                      to the above concern, section 14 of the               for developing new safe harbors and
                                                      SW., Washington, DC 20201. Because                      Medicare and Medicaid Patient and                     Special Fraud Alerts.
                                                      access to the interior of the Cohen                     Program Protection Act of 1987, Public
                                                      Building is not readily available to                    Law 100–93 § 14, the Act, § 1128B(b), 42                 In developing safe harbors for a
                                                      persons without Federal Government                      U.S.C. 1320a–7b(b), specifically                      criminal statute, OIG is required to
                                                      identification, commenters are                          required the development and                          engage in a thorough review of the range
                                                      encouraged to schedule their delivery                   promulgation of regulations, the so-                  of factual circumstances that may fall
                                                      with one of our staff members at (202)                  called ‘‘safe harbor’’ provisions,                    within the proposed safe harbor subject
                                                      619–1343.                                               specifying various payment and                        area so as to uncover potential
                                                         For information on viewing public                    business practices that, although                     opportunities for fraud and abuse. Only
                                                      comments, please see the                                potentially capable of inducing referrals             then can OIG determine, in consultation
                                                      SUPPLEMENTARY INFORMATION section.                      of business reimbursable under the                    with the Department of Justice, whether
                                                      FOR FURTHER INFORMATION CONTACT:                        Federal health care programs, would not               it can effectively develop regulatory
                                                      Traci Bone, Congressional and                           be treated as criminal offenses under the             limitations and controls that will permit
                                                      Regulatory Affairs Liaison, Office of                   anti-kickback statute and would not                   beneficial and innocuous arrangements
                                                      Inspector General, (202) 708–9884.                      serve as a basis for administrative                   within a subject area while, at the same
                                                                                                              sanctions. OIG safe harbor provisions                 time, protecting the Federal health care
                                                      SUPPLEMENTARY INFORMATION:
                                                         Submitting Comments: We welcome                      have been developed ‘‘to limit the reach              programs and their beneficiaries from
                                                      comments from the public on                             of the statute somewhat by permitting                 abusive practices.
                                                      recommendations for developing new or                   certain non-abusive arrangements, while               II. Solicitation of Additional New
                                                      revised safe harbors and Special Fraud                  encouraging beneficial and innocuous                  Recommendations and Proposals
                                                      Alerts. Please assist us by referencing                 arrangements’’ (56 FR 35952, July 29,
wreier-aviles on DSK3TPTVN1PROD with PROPOSALS




                                                      the file code OIG–120–N.                                1991). Health care providers and others                 In accordance with the requirements
                                                         Inspection of Public Comments: All                   may voluntarily seek to comply with                   of section 205 of HIPAA, OIG last
                                                      comments received before the end of the                 these provisions so that they have the                published a Federal Register
                                                      comment period are available for                        assurance that their business practices               solicitation notice for developing new
                                                      viewing by the public. All comments                     will not be subject to liability under the            safe harbors and Special Fraud Alerts on
                                                      will be posted on http://                               anti-kickback statute or related                      December 28, 2010 (75 FR 81556). As
                                                      www.regulations.gov as soon as possible                 administrative authorities. The OIG safe              required under section 205, a status
                                                      after they have been received.                          harbor regulations are found at 42 CFR                report of the public comments received
                                                      Comments received timely will also be                   1001.                                                 in response to that notice is set forth in


                                                 VerDate Mar<15>2010   15:07 Dec 28, 2011   Jkt 226001   PO 00000   Frm 00027   Fmt 4702   Sfmt 4702   E:\FR\FM\29DEP1.SGM   29DEP1
                                                      81906               Federal Register / Vol. 76, No. 250 / Thursday, December 29, 2011 / Proposed Rules

                                                      Appendix F.1 OIG is not seeking                           Dated: December 22, 2011.                           economy and to administer the public
                                                      additional public comment on the                        Daniel R. Levinson,                                   lands in a more orderly manner, the
                                                      proposals listed in Appendix F at this                  Inspector General.                                    BLM believes that a rulemaking is
                                                      time. Rather, this notice seeks                         [FR Doc. 2011–33345 Filed 12–28–11; 8:45 am]          needed to enhance the Agency’s ability
                                                      additional recommendations regarding                    BILLING CODE 4152–01–P
                                                                                                                                                                    to establish an efficient competitive
                                                      the development of new or modified                                                                            process for issuing Right-of-Way (ROW)
                                                      safe harbor regulations and new Special                                                                       leases for solar and wind energy
                                                      Fraud Alerts beyond those summarized                    DEPARTMENT OF THE INTERIOR                            development that is based upon the
                                                      in Appendix F.                                                                                                Agency’s authority under the Federal
                                                        A detailed explanation of                             Bureau of Land Management                             Land Policy and Management Act
                                                      justifications for, or empirical data                                                                         (FLPMA) (43 U.S.C. 1701 et seq.).
                                                      supporting, a suggestion for a safe                     43 CFR Part 2800                                         The BLM believes that a competitive
                                                      harbor or Special Fraud Alert would be                                                                        process would enhance its ability to
                                                                                                              [WO–300–1430–PQ]                                      capture fair market value for the use of
                                                      helpful and should, if possible, be
                                                      included in any response to this                        RIN 1004–AE24                                         public lands, as required under Section
                                                      solicitation.                                                                                                 504(g) of FLPMA (43 U.S.C. 1764(g)),
                                                                                                              Advance Notice of Proposed                            and ensure fair access to leasing
                                                      A. Criteria for Modifying and                           Rulemaking Regarding a Competitive                    opportunities for renewable energy
                                                      Establishing Safe Harbor Provisions                     Process for Leasing Public Lands for                  development. This rulemaking would
                                                                                                              Solar and Wind Energy Development                     establish competitive bidding
                                                        In accordance with section 205 of
                                                      HIPAA, we will consider a number of                                                                           procedures for lands within designated
                                                                                                              AGENCY: Bureau of Land Management.
                                                      factors in reviewing proposals for new                                                                        solar and wind energy development
                                                                                                              ACTION:Advance notice of proposed                     leasing areas, define qualifications for
                                                      or modified safe harbor provisions, such                rulemaking.
                                                      as the extent to which the proposals                                                                          potential bidders, and structure the
                                                      would affect an increase or decrease in:                SUMMARY:   The Bureau of Land                         financial arrangements necessary for the
                                                                                                              Management (BLM) is issuing this                      process.
                                                        • Access to health care services,                                                                              The purpose of this ANPR is to solicit
                                                                                                              Advance Notice of Proposed
                                                        • The quality of health care services,                                                                      public comments that will be helpful to
                                                                                                              Rulemaking (ANPR) to solicit public
                                                        • Patient freedom of choice among                                                                           the BLM in preparing a subsequent
                                                                                                              comments and suggestions that will be
                                                      health care providers,                                                                                        proposed rule, as well as to gather the
                                                                                                              used in preparing a proposed rule to
                                                                                                                                                                    input that is needed to develop an
                                                        • Competition among health care                       establish a competitive process for
                                                                                                                                                                    efficient competitive process for ROW
                                                      providers,                                              leasing public lands for solar and wind
                                                                                                                                                                    leasing. The scope of the proposed rule
                                                        • The cost to Federal health care                     energy development.
                                                                                                                                                                    will include existing BLM wind and
                                                      programs,                                               DATES: The BLM will accept comments                   solar policies and guidelines, and terms
                                                        • The potential overutilization of                    and suggestions on the ANPR until                     and conditions of lease authorizations
                                                      health care services, and                               February 27, 2012.                                    as well as the competitive process.
                                                        • The ability of health care facilities               ADDRESSES: You may submit comments                       To help the BLM prepare the
                                                      to provide services in medically                        by any of the following methods:                      proposed rule, the Agency is seeking
                                                      underserved areas or to medically                          Mail: Director (630) Bureau of Land                public comments and suggestions on the
                                                      underserved populations.                                Management, U.S. Department of the                    scope of the competitive process. See
                                                                                                              Interior, Room 2134LM, 1849 C St. NW.,                section III of this ANPR for a list of
                                                        In addition, we will also take into                   Washington, DC 20240, Attention:                      specific questions relating to this topic.
                                                      consideration other factors, including,                 1004–AE24.
                                                      for example, the existence (or                             Personal or messenger delivery: U.S.               I. Public Comment Procedures
                                                      nonexistence) of any potential financial                Department of the Interior, Bureau of                 Commenting on the ANPR
                                                      benefit to health care professionals or                 Land Management, 20 M Street SE.,
                                                      providers that may take into account                                                                            Written comments and suggestions
                                                                                                              Room 2134LM, Attention: Regulatory                    should:
                                                      their decisions whether to (1) order a                  Affairs, Washington, DC 20003.
                                                      health care item or service or (2) arrange                 Federal eRulemaking Portal: http://                —Be specific;
                                                      for a referral of health care items or                  www.regulations.gov. Follow the                       —Explain the reasoning behind your
                                                      services to a particular practitioner or                instructions at this Web site.                          comments and suggestions; and
                                                      provider.                                                                                                     —Address the issues outlined in the
                                                                                                              FOR FURTHER INFORMATION CONTACT: Ray                    ANPR.
                                                      B. Criteria for Developing Special Fraud                Brady at (202) 912–7312 or Linda
                                                      Alerts                                                  Resseguie at (202) 912–7337 regarding                   For comments and suggestions to be
                                                                                                              the substance of this ANPR. For                       the most useful, and most likely to
                                                        In determining whether to issue                                                                             inform decisions on the content of the
                                                                                                              information on procedural matters or
                                                      additional Special Fraud Alerts, we will                                                                      proposed rule, they should:
                                                                                                              the rulemaking process generally, you
                                                      consider whether, and to what extent,                                                                         —Be substantive; and
                                                                                                              may contact Joseph Berry at (202) 912–
                                                      the practices that would be identified in
wreier-aviles on DSK3TPTVN1PROD with PROPOSALS




                                                                                                              7442. Persons who use a                               —Facilitate the development and
                                                      a new Special Fraud Alert may result in                                                                         implementation of an
                                                                                                              telecommunications device for the deaf
                                                      any of the consequences set forth above,                                                                        environmentally and fiscally
                                                                                                              (TDD) may call the Federal Information
                                                      as well as the volume and frequency of                                                                          responsible process for leasing public
                                                                                                              Relay Service (FIRS) at 1–(800) 877–
                                                      the conduct that would be identified in                                                                         lands for solar and wind energy
                                                                                                              8339, 24 hours a day, seven days a week
                                                      the Special Fraud Alert.                                                                                        development.
                                                                                                              to contact the above individuals.
                                                        1 The OIG Semiannual Report to Congress can be        SUPPLEMENTARY INFORMATION: In order to                  The BLM is particularly interested in
                                                      accessed through the OIG Web site at http://            foster the growth and development of                  receiving comments and suggestions in
                                                      oig.hhs.gov/publications/semiannual.asp.                the renewable energy sector of the                    response to the questions listed in


                                                 VerDate Mar<15>2010   15:07 Dec 28, 2011   Jkt 226001   PO 00000   Frm 00028   Fmt 4702   Sfmt 4702   E:\FR\FM\29DEP1.SGM   29DEP1
